No._____________

In The
Supreme Court of the United States
BRYAN LAMAR BROWN

Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached Petition for Writ of Certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis and
was represented by appointed counsel in the United States Court of Appeals for the
Fourth Circuit.
The appointment was made under the following provision of law: Criminal
Justice Act of 1964, 18 U.S.C ยง 3006A.
Respectfully submitted this 29th day October 2020.

Trey R. Kellerter
KELLETERLAW PC
409 Duke Street, Suite 100
Norfolk, Virginia 23510
(757) 500-7666
trey.kelleter@kelleterlaw.com
Counsel for Petitioner

